APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Eleventh Circuit (January 30, 2019)......... la
Opinion of the District Court of the United States
for the Middle District of Alabama, Northern
Division (September 25, 2018).......................... 3a
Judgment of the District Court of the United
States for the Middle District of Alabama,
Northern Division (September 25, 2018)......... 5a
Report and Recommendation of the Magistrate
Judge, Middle District of Alabama, Northern
Division (May 1, 2018)...................................... 7a
Order Denying IFP Motion Which Had Not Been
Filed, by the Middle District of Alabama,
Northern Division (May 1, 2018).................... 28a
Order Denying Rehearing by the United States
Court of Appeals for the Eleventh Circuit
(April 10, 2019)........ ......................................... 30a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(JANUARY 30, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ANDREW CLARKE, BEVERLY ELAINE CORBIN,
Plaintiffs-Appellants,
versus
RAY D. GOODSON, County Commissioner, Ret.,
PIKE COUNTY BOARD OF COMMISSIONERS,
JOEY JACKSON, County Commissioner,
ROBIN SULLIVAN, County Commissioner,
JIMMY BARRON, County Commissioner,
Defendants-Appellees.
No. 18-14537-FF
On Appeal from the United States District Court
for the Middle District of Alabama
Before: TJOFLAT, WILLIAM PRYOR,
and BRANCH, Circuit Judges.
BY THE COURT:
Appellees’ Motion to Dismiss Frivolous Appeal is
GRANTED. The appeal is hereby DISMISSED.
Appellees’ request for damages and costs under
Federal Rule of Appellate Procedure 38 is DENIED.

App.2a

The Clerk’s Office is directed to close the file on
this appeal.

App.3a
OPINION OF THE DISTRICT COURT OF THE
UNITED STATES FOR THE MIDDLE DISTRICT
OF ALABAMA, NORTHERN DIVISION
(SEPTEMBER 25, 2018)
IN THE DISTRICT COURT OF THE UNITED
STATES FOR THE MIDDLE DISTRICT OF
ALABAMA, NORTHERN DIVISION
ANDREW CLARKE AND
BEVERLY ELAINE CORBIN,
Plaintiffs,
v.
RAY D. GOODSON, ET AL.,
Defendants.
CIVIL ACTION NO. 2:17cv730-MHT(WO)
Before: Myron H. THOMPSON,
United States District Judge
Pursuant to 42 U.S.C. § 1983, plaintiffs filed this
lawsuit asserting that the defendant county commis­
sioners violated their rights to equal protection and
due process, and the Establishment Clause of the First
Amendment, in deciding not to approve plaintiffs’
application for a license to sell alcohol at their
business. This lawsuit is now before the court on the
recommendation of the United States Magistrate Judge
that defendants’ motion for dismissal be granted and
plaintiff s case be dismissed. Also before the court are

App.4a
plaintiffs objections to the recommendation. After an
independent and de novo review of the record, the
court concludes that plaintiffs objections should be
overruled and the magistrate judge’s recommendation
adopted, albeit for somewhat different reasons.
An appropriate judgment will be entered.
DONE, this the 25th day of September, 2018.
/s/ Myron H. Thompson
United States District Judge

App.5a

JUDGMENT OF THE DISTRICT COURT OF THE
UNITED STATES FOR THE MIDDLE DISTRICT
OF ALABAMA, NORTHERN DIVISION
(SEPTEMBER 25, 2018)
IN THE DISTRICT COURT OF THE
UNITED STATES FOR THE MIDDLE DISTRICT
OF ALABAMA, NORTHERN DIVISION
ANDREW CLARKE AND
BEVERLY ELAINE CORBIN,
Plaintiffs,
v.
RAY D. GOODSON, ET AL.,
Defendants.
CIVIL ACTION NO. 2:17cv730-MHT(WO)
Before: Myron H. THOMPSON,
United States District Judge
In accordance with the memorandum opinion
entered today, it is the ORDER, JUDGMENT, and
DECREE of the court as follows:
Cl) Plaintiffs’ objections (doc. no. 35) are
overruled.
(2) The United States Magistrate Judge’s
recommendation (doc. no. 34) is adopted.

App.6a

(3)

Defendants’ motion to dismiss (doc. no. 9)
is granted.

(4) This lawsuit is dismissed with prejudice.
(5) The motion to strike and for sanctions
(doc. No 37) is denied.
(6) The motion for reconsideration (doc. no.
32) is denied as moot.
It is further ORDERED that costs are taxed
against plaintiffs, for which execution may issue.
The clerk of the court is DIRECTED to enter
this document on the civil docket as a final judgment
pursuant to Rule 58 of the Federal Rules of Civil
Procedure.
This case is closed.
DONE, this the 25th day of September, 2018.
/s/ Myron H. Thompson
United States District Judge

App.7a

REPORT AND RECOMMENDATION OF THE
MAGISTRATE JUDGE, MIDDLE DISTRICT OF
ALABAMA, NORTHERN DIVISION
(MAY 1, 2018)
IN THE DISTRICT COURT OF THE UNITED
STATES FOR THE MIDDLE DISTRICT OF
ALABAMA, NORTHERN DIVISION
ANDREW CLARKE AND
BEVERLY ELAINE CORBIN,
Plaintiffs,
v.
RAY D. GOODSON, ET AL.,
Defendants.
CASE NO. 2:17-cv-730-MHT-TFM
Before: Terry F. MOORER,
United States Magistrate Judge
Pursuant to 28 U.S.C. § 636(b)(1), this case was
referred to the undersigned United States Magistrate
Judge for review and submission of a report with
recommended findings of fact and conclusions of law
(Doc. 2, entered November 3, 2017). Now pending before
the Court is the Defendants’ Motion to Dismiss (Doc.
9, filed December 5, 2017) and supporting brief (Doc.
10 filed December 5, 2017). The Plaintiffs have filed a
Response (Doc. 17, filed December 26, 2017) to which

App,8a
Defendants have filed a Reply. (Doc. 18, filed Decem­
ber 29, 2017). The motions are fully submitted and ripe
for review. For good cause shown, the Magistrate Judge
recommends that the Motion to Dismiss be granted
and this case be dismissed with prejudice.
I.

BACKGROUND

On October 25, 2017, Plaintiffs, Andrew Clarke
and Beverly Elaine Corbin, filed the Complaint in this
case alleging constitutional violations resulting from
the Pike County Commissioners decision to decline
approval of Plaintiffs’ application to the ABC Board
for an Alabama license. (Doc. 1 at pp. 2, 5). Plaintiff
sues certain members of the Pike County Commission­
ers, who voted against their application. Specifically,
Plaintiffs allege in the Original Complaint that Defen­
dants violated the Establishment Clause of the First
Amendment by allowing citizens who were members
of a church located near Plaintiffs place of business
to speak in opposition to the Plaintiffs’ application.
Plaintiffs also allege that Defendants violated their
rights to due process and equal protection because
the Defendants voted to deny approval of Plaintiffs’
application because “Plaintiffs have a personal rela­
tionship, and one is white, and the other is black.” (Doc.
1 at p. 5).
By Order of April 9, 2018, this Court gave Plain­
tiffs an opportunity to amend their Complaint. (Doc.
31). Thereafter, Plaintiffs filed an Amended Complaint
wherein Plaintiffs realleged the same facts and named
the same Defendants as in the Original Complaint.
(See Doc. 1, Doc. 33). Indeed, Plaintiffs sue pursuant
to 42 U.S.C. § 1983 alleging they were discriminated
against by the Pike County Commission on the basis

App.9a

that they were a mixed race couple when the Commis­
sion voted to deny their application for a liquor license.
(Doc. 33 at p. l). Plaintiffs bring this suit against the
named Defendants in both their official and individ­
ual capacities. (Doc. 33 at p. 2). Plaintiffs demand an
award of $2,000,000.00 per Plaintiff in compensatory
damages, based upon alleged further lost profits they
claim they would have made over a twenty year
period had Plaintiffs been granted an Alabama Alcohol
License. (Doc. 1 at p. 6, Doc 33 at p. 2). Plaintiffs seek
an award of punitive damages in the amount of
$4,000,000.00 per Plaintiff. (Doc. 1 at p. 6).
A careful review of the Amended Complaint
convinces the Court that there are no additional claims
brought in the Amended to Complaint to which
Defendants must respond. Rather, Plaintiffs do not
restate all of their theories of recovery in the Amended
Complaint. Specifically, Plaintiffs failed to include in
the Amended Complaint their First Amendment and
Due Process claims which were stated in the Original
Complaint. (Doc. 1, Doc. 33). Thus, these claims are
arguably abandoned. See Pintando v. Miami-Dade
Housing Agency, 501 F. 3d 1241, 1243 (llth Cir. 2007)
(“As a general matter,’[a]n amended pleading super­
sedes the former pleading; the original pleading is
abandoned by the amendment, and is no longer a part
of the pleader’s averments against his adversary.’”)
(Citations omitted). However, out of an abundance of
caution, the Court will address these claims herein.
II.

JURISDICTION

Plaintiffs assert claims pursuant to 28 U.S.C.
§1331 (federal question jurisdiction) as they bring
claims for violations of the United States Constitu-

App.lOa

tion through 42 U.S.C. § 1983. Defendants challenge
jurisdiction in their motion to dismiss and the Court
will address this claim in further detail below.
III. STANDARDS OF REVIEW
It is important to note there are four potential
standards of review at issue: Rule 12(b)(1) facial attack,
Rule 12(b)(1) factual attack, Rule 12(h)(3), Rule 12(b)(6)
and Rule 41(b). All litigants, pro se or not, must comply
with the Federal Rules of Civil Procedure. Generally,
complaints by pro se plaintiffs are read more liberally
than those drafted by attorneys. Osahar v. U.S. Postal
Serv., 297 Fed. Appx 863, 864 (llth Cir. 2008). Al­
though the court is required to liberally construe a
pro se litigant’s pleadings, the court does not have
“license to serve as de facto counsel for a party ... or
to rewrite an otherwise deficient pleading in order to
sustain an action.” GJR Investments, Inc. v. County
of Escambia, Fla., 132 F.3d 1359, 1369 (llth Cir.
1998) (citations omitted) (overruled on other grounds
by Randall v. Scott, 610 F.3d 701 (llth Cir. 2010));
see also Giles v. Wal-Mart Distrib. Ctr., 359 Fed.
Appx. 91, 93 (llth Cir. 2009) (internal citations and
quotation omitted) (“Although pro se pleadings are
held to a less strict standard than pleadings filed by
lawyers and thus are construed liberally, this liberal
construction does not give a court license to serve as
de facto counsel for a party, or to rewrite an otherwise
deficient pleading in order to sustain an action”).
“A pro se plaintiff ‘must be given at least one
chance to amend the complaint before the district
court dismisses the action with prejudice’ at least
where a more carefully drafted complaint might state
a claim.” See Carter v. HSBC Mortg. Serv., 622 F.

App.lla

App’x 783, 786 (llth Cir. 2015) (Emphasis in original)
citing Bank v.Pitt, 928 F. 2d 1108, 1112 (llth Cir.
1991). Where it is futile for a plaintiff to file an
amended complaint because “a more carefully drafted
complaint could not state a claim,” there is no need to
allow plaintiff to amend. Id. For the reasons set forth
in this Recommendation, the Court concludes it would
be futile in this instance for Plaintiff to be given an
opportunity to amend.
A. Federal Rule of Civil Procedure 12(b)(1) - Lack
of Subject Matter Jurisdiction
A Rule 12(b)(1) motion directly challenges the
district court’s subject matter jurisdiction. McElmurray
v. Consol Gov‘t ofAugusta-Richmond Cnty, 501 F.3d
1244, 1251 (llth Cir. 2007); Gilmore v. Day, 125 F.
Supp.2d 468, 470 (M.D. Ala. 2000). The burden of proof
on a Rule 12(b)(1) motion is on the party averring juris­
diction. Gilmore, 125 F.Supp.2d at 471 (citing Thomson
v. Gaskill, 315 U.S. 442, 446, 62 S. Ct. 673, 86 L.Ed.
951 (1942)). A motion to dismiss for lack of subject
matter jurisdiction may occur either facially or factu­
ally. Makro v. Capital of America, Inc. v. UBS AG,
543 F.3d 1254, 1258 (llth Cir. 2008) (citing Morrison
v. Amway Corp., 323 F.3d 920, 925 n.5 (llth Cir.
2003)); Stalley v. Orlando Regional Healthcare Sys.,
Inc., 524 F.3d 1229, 1232 (llth Cir. 2008) (citing
McElmurray, 501 F.3d at 1251).
A “facial attack” is based solely on the pleadings
and requires the court to assess whether the plaintiff
has alleged a sufficient basis for subject matter juris­
diction. Stalley, 524 F.3d at 123233; Morrison, 323
F.3d at 925 n. 5; Lawrence v. Dunbar, 919 F.2d 1525,
1529 (llth Cir. 1990). “On a facial attack, a plaintiff

App.l2a

is afforded safeguards similar to those provided in
opposing a Rule 12(b)(6) motion-the court must consider
the allegations of the complaint to be true.” Lawrence,
919 F.2d at 1529 (citing Williamson v. Tucker, 645 F.2d
404, 412 (5th Cir. 1981)); see also Houston v. Marod
Supermarkets, 733 F.3d 1323, 1335 (llth Cir. 2013)
(The Court evaluates whether the plaintiff “has suffi­
ciently alleged a basis of subject matter jurisdiction”
in the complaint and employs standards similar to
those governing a Rule 12(b)(6) review.). The Court is
“not required to accept mere conclusory allegations as
true, nor are we required to accept as true allegations
in the complaint that are contrary to factual details
presented in the exhibits.” Griffin Indus., Inc. v.
Irvin, 496 F.3d 1189, 1205-06 (llth Cir. 2007). “[W]hen
the exhibits contradict the general and conclusory
allegations of the pleading, the exhibits govern.” Id.
at 1206. When discussing exhibits on a facial attack,
the Court may consider exhibits attached to the com­
plaint as well as those attached to a motion to
dismiss. Lawrence v. United States, 597 Fed. Appx.
599, 602 (llth Cir. 2015). Exhibits attached to the
complaint are considered part of the complaint for all
purposes. Id. Further, exhibits attached to a motion
to dismiss may be considered for a facial attack if the
documents are central to the plaintiffs claim and
their authenticity is not disputed. Id.
On the other hand, a “factual attack” challenges
“subject matter jurisdiction in fact, irrespective of the
pleadings.” Morrison, 323 F.3d at 925. On a Rule 12(b)
(l) factual attack, the court “may proceed as it never
could under 12(b)(6) or Fed. R. Civ. P. 56. Lawrence,
919 F.2d at 1529. Further, in resolving a factual attack,
the court “may consider extrinsic evidence such as

App.l3a

testimony and affidavits.” Makro, 543 F.3d at 1258
(quoting Morrison, 323 F.3d at 925 n. 5); accord Stalley, 524 F.3d at 1233; Miccosukee Tribe of Indians of
Florida v. U.S., E.P.A., 105 F.3d 599, 603 (llth'Cir.
1997). The trial court is free to weigh the evidence
and satisfy itself as to the existence of its power to
hear the case without presuming the truthfulness of
. the plaintiffs allegations.” Makro, 543 F.3d at 1528
(internal quotations omitted); see also Willett v. United
States, 24 F.Supp.3d 1167, 1173 (M.D. Ala. 2014)
(stating same). In other words, “the district court
should apply a summary judgment standard when
ruling on the motion to dismiss as a factual attack on
subject matter jurisdiction.” Miccosukee Tribe, 105
F.3d at 603 (citing Lawrence, 919 F.2d at 1530).
However, the Court is not at liberty to weigh the
evidence when the factual attack “also implicates an
element of the cause of action.” Lawrence, 919 F.2d
at 1529. The Eleventh Circuit has specifically cautioned
district courts “should only rely on Rule 12(b)(1) if the
facts necessary to sustain jurisdiction do not implicate
the merits of plaintiffs cause of action.” Morrison,
323 F.3d at 925 (quoting Garcia v. Copenhaver, Bell &
Assocs., 104 F.3d 1256, 1261 (llth Cir. 1997) (inter­
nal quotations omitted and emphasis in original).
B. Federal Rule of Civil Procedure 12(b)(6) Failure to State a Claim
A Rule 12(b)(6) motion to dismiss tests the legal
sufficiency of the complaint. Gilmore, 125 F. Supp.2d
at 471. To survive a motion to dismiss for failure to
state a claim, the plaintiff must allege “enough facts
to state a claim to relief that is plausible on its face.”
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570, 127

App.l4a

S. Ct. 1955, 1974, 167 L.Ed.2d 929 (2007). In consider­
ing a defendant’s motion to dismiss, the “court must
view the complaint in the light most favorable to the
plaintiff and accept all the plaintiffs well-pleaded
facts as true.” Am. United Life Ins. v. Martinez, 480
F.3d 1043, 1057 (l 1th Cir. 2007) (citing St. Joseph’s
Hosp. Inc. v. Hosp. Corp. of Am., 795 F.2d 948, 954
(llth Cir. 1986)). In other words, in deciding a 12(b)(6)
motion to dismiss, the court will accept the petition­
er’s allegations as true. Hishon v. King & Spalding,
467 U.S. 69, 73, 104 S. Ct. 2229, 2232, 81 L. Ed.2d 59
(1984); Ellis v. General Motors Acceptance Corp., 160
F.3d 703, 706 (llth Cir. 1998); Roberts v. Florida
Power & Light Co., 146 F.3d 1305, 1307 (llth Cir.
1998) (citing Lopez v. First Union National Bank of
Florida, 129 F.3d 1186, 1189 (llth Cir. 1997)). How­
ever, “[clonclusory allegations, unwarranted deductions
of facts or legal conclusions masquerading as facts will
not prevent dismissal.” Jackson v. BellSouth Tele­
comms., 372 F.3d 1250, 1262 (llth Cir. 2004) (quoting
Oxford Asset Mgmt., Ltd. v. Jaharis, 297 F.3d 1182,
1188 (llth Cir. 2002)); see also Associated Builders,
Inc. v. Alabama Power Co., 505 F.2d 97, 100 (5th Cir.
1974) (conclusory allegations and unwarranted deduc­
tions of fact are not admitted as true).11
Thus, a complaint should be dismissed “when the
allegations in a complaint, however true, could not
raise a claim of entitlement to relief.” Twombly, 550
U.S. at 558, 127 S. Ct. at 1966. Further, “this basic
deficiency should ... be exposed at the point of mini1 In Bonner v. City of Prichard, 661 F.2d 1206 (llth Cir. 1981,
en band, the Eleventh Circuit adopted as binding precedent all of
the decisions of the former Fifth Circuit handed down prior to
the close of business on September 30, 1981.

App.l5a

mum expenditure of time and money by the parties
and the court.” Id. (citations omitted). “While a com­
plaint attacked by a Rule 12(b)(6) motion to dismiss
does not need detailed factual allegations, a plaintiffs
obligation to provide the ‘grounds’ of his ‘entitle [ment]
to relief requires more than labels and conclusions,
and a formulaic recitation of the elements of a cause
of action will not do.” Id. at 555, 127 S. Ct. at 1964-65
(citations omitted). Factual allegations must be enough
to raise a right to relief above the speculative level.
Id. Thus, it does not require a heightened fact plead­
ing of specifics, but only enough facts to state a claim
to relief that is plausible on its face. Id. at 570, 127
S. Ct. at 1974. It is not enough that the pleadings
merely “le[ave] open the possibility that the plaintiff
might later establish some set of undisclosed facts to
support recovery.” Id. at 561, 127 S. Ct. at 1968 (inter­
nal quotation and alteration omitted). Consequently,
the threshold for a complaint to survive a motion to
dismiss is “exceedingly low.” Ancata v. Prison Health
Services, Inc., 769 F.2d 700, 703 (llth Cir. 1985).
C. FEDERAL RULE OF CIVIL PROCEDURE
RULE 12(H)(3)
Fed. R. Civ. P. 12(h)(3) provides simply “[i]f the
court determines at any time that it lacks subject
matter jurisdiction, the court must dismiss the action.”
A Court may sua sponte dismiss Plaintiffs case for
lack of federal jurisdiction at any time. See, Herskowitz
v. Reid, 187 F. App’x. 911, 912-913 (llth Cir. 2006).

App.l6a
IV. DISCUSSION AND ANALYSIS
A. Article III Case or Controversy Requirement
The Court must first consider whether it has sub­
ject matter jurisdiction over this case. See Ramming
v. United States, 281 F.3d 158, 161 (5th Cir. 2001)
(stating that where “a Rule 12(b)(1) motion is filed in
conjunction with other Rule 12 motions, the court
should consider the Rule 12(b)(1) jurisdictional attack
before addressing any attack on the merits.”). “Article
III of the Constitution limits the ‘judicial power’ of the
United States to the resolution of ‘cases’ and ‘contro­
versies.’” Valley Forge Christian Coll. v. Americans
United for Separation of Church and State, 454 U.S.
464, 471 (1982) (Citation omitted). “Standing to sue is
a doctrine rooted in the traditional understanding of
a case or controversy.” Spokeo, Inc. v. Robins,_U.S.
136 S.Ct. 1540, 1547 (2016). “[Ilnjury in fact, [is] the
‘[f]irst and foremost’ of standing’s three elements.” Id.
“[A] plaintiff without an injury in fact lacks Article
III standing, and federal courts do not have jurisdic­
tion over his or her complaint.” Stalley v. Orlando Reg’l
Healthcare Sys., 524 F. 3d 1229, 1232 (llth Cir.
2008); Valley Forge, 454 U.S. at 473. An Article III
case or controversy simply does not exist in the
absence of a “‘distinct and palpable injury,’ to the
plaintiff.” Duke Power Co. v. Carolina Envtl. Study
Grp., 438 U.S. 59, 72 (1978) (Citation omitted);
Hollywood Mobile Estates Ltd., v. Seminole Tribe of
Fla., 641 F. 3d 1259, 1265 (llth Cir. 2011) (“Standing
determines the power of the court to entertain suit.”)
(Citation omitted); Fed. R. Civ. P. 12(h)(3) (“If the
court determines as any time that it lacks subject
matter jurisdiction, the court must dismiss the action.”)

App.l7a

It is undisputed that Plaintiffs were not denied
an Alabama Alcohol License. (Doc. 9, Ex. l). Defend­
ants argue that because Plaintiffs were not denied this
License they have no standing to bring this action
claiming constitutional violations because they have
suffered no constitutional injury. The law is settled;
“Wo state a claim under 42 U.S.C § 1983, a plaintiff
must allege that (l) the defendant deprived him of a
right secured by the United States Constitution or
federal law and (2) such deprivation occurred under
color of state law.” Richardson v. Johnson, 598 F. 3d
734, 737 (llth Cir. 2010) (Citations omitted). Moreover,
any § 1983 claim requires “proof of actual injury.”
Memphis Cmty. Sch. Dist. v. Stachura, 477 U.S. 299,
308 (1986). Indeed, because the Alabama ABC Board,
which has the final authority on deciding whether to
issue a liquor license, granted Plaintiffs’ license, there
is no cognizable claim based on Pike County Commis­
sion’s decision not to provide approval for Plaintiffs’
application. See Manor Healthcare Corp., v. Lomelo,
929 F.2d 633, 638 (llth Cir. 1991) (Because the mayor
was not the ultimate policy making authority on zoning
issues, the City could not be held liable under § 1983
for his alleged bribery in connection with zoning
matter).
The Twenty-First Amendment to the United
States Constitution “bestowed upon the states broad
regulatory power over the liquor traffic within their
territories.” United States v. Frankfort Distilleries,
324 U.S. 293, 299 (1945). In the exercise of this legisla­
tive power to regulate the sale of alcohol, the Alabama
Legislature expressly adopted the Alabama Alcoholic
Beverage Licensing Code. Ala. Code § 28-3A-1, et.
seq. (1975). Section 28-3A-23 (d) provides as follows:

App.l8a

[e]ach retail liquor license application must
be approved by the governing authority of
the municipality if the retailer is located in
a municipality, or by the county commission
if the retailer is located in the county and
outside the limits of the municipality before
the board shall have authority to grant the
license.
(Emphasis added). See also, Maddox v. Madison County
Comm’n, 661 So.2d 224, 225 (Ala. 1995). Addition­
ally, the Legislature provided for an ABC Board Hear­
ing Commission, which is “[a] body appointed by the
board to hear and decide all contested licensee appli­
cations and all disciplinary charges against any licen­
see.” Ala Code. § 28-3-1(14).
It is undisputed that Plaintiff appeared before
the Pike County Commission on July 11, 2016 “for the
express purpose of obtaining a certificate, to attach to
the application for a liquor license from the Alabama
Beverage Control Board.” (Doc. 17 at pp. 1-2). There­
after, the Pike County Commission denied approval
of Plaintiffs application to the ABC Board, and Plain­
tiffs sought and obtained a hearing with the ABC
Board Hearing Commission to decide their contested
license application. (Doc. 1 at p. 5; Doc. 9, Ex. 3). This
hearing was held on September 14, 2016, and on
September 15, 2015, the ABC Board Hearing Commis­
sion issued a ruling stating: “[a]fter reviewing testimony
from an ABC Inspector, the applicant, and witnesses,
the Commission voted unanimously to grant the appli­
cant an ABC license for On or Off Premises Beer."
(Doc. 9, Ex. 4 at pp.2-3; Ex.l). (Emphasis Added).
Thus, the Court concludes Plaintiffs lack standing to
pursue this cause of action because they have failed

App.l9a

to prove that they suffered any injury. See Bd. of
County Com’rs v. Brown, 520 U.S. 397, 415 (1997)
(“Congress did not intend municipalities to be held
liable unless deliberate action attributable to the
municipality directly caused a deprivation of federal
rightsf) (Emphasis added).
Defendants also argue this case is due to be dis­
missed because Plaintiffs’ claims are moot. Thus,
Defendants argue no justiciable case or controversy
ever arose. See Harrell v. Fla. Bar, 608 F. 3d 1241, 127
(llth Cir. 2010) (“standing, ripeness and mootness . . .
go to the heart of the Article III case or controversy
requirement”) Specifically, Defendants argue because
Plaintiffs filed this action over one year after the
ABC Board granted their license that Plaintiffs claims
are moot and frivolous. See Weinstein v. Bradford, 423
U.S 147, 148 (1975) (Upon being granted a “complete
release from [parole] supervision”, Respondent’s claim
became moot because he had “no interest whatever
in the procedures” concerning parole); see also, 31
Foster Children v. Bush, 329 F. 3d 1255, 1263 (llth
Cir. 2003) (Claims for prospective injunction relief of
foster children dismissed as moot because they had
been adopted). Moreover, the Defendants point out
that had Plaintiffs brought this action prior to the
ABC Board’s final decision, their claim would not have
been ripe. See Digital Props, v. City ofPlantation, 121
F.3d 586, 590 (llth Cir. 1997). Accordingly, the Court
concludes that Plaintiffs’ claims for any prospective
injunctive relief are due to be dismissed. The Court
will now turn its attention to Plaintiffs’ claims for
monetary damages.

App.20a

B. Legislative Immunity
Plaintiffs bring claims against named members
of the Pike County Commission for “vot[ing] 4-1 to deny
the plaintiffs, a certificate of approval, to be attached
to the application form to the Alabama Alcohol Bever­
age Control Board.” (Doc. 33 at p. l). Thus, Plaintiffs
allegations against Defendant arise from their official
acts as Commission members. The law is clear that
the Defendants sued for their official actions are
immune from suit.
The Eleventh Amendment provides that “[t]he judi­
cial power of the United States shall not be construed
to extend to any suit in law or equity, commenced or
prosecuted against one of the United States by citizens
of another state, or by citizens or subjects of any
foreign state.” U.S. Const, amend. XI; see also Toth v.
City of Dothan, Ala., 953 F. Supp. 1502, 1506 (M.D.
Ala. 1996) (citing Eleventh Amendment). Specifically,
an unconsenting state is immune from lawsuits
brought in federal court by the state’s own citizens
unless Congress has abrogated immunity or the state
has waived its immunity. Id. (citations omitted). Con­
gress has not abrogated Eleventh Amendment
immunity in § 1983 cases, nor has Alabama waived
its immunity. See Bd. of Trs. Of Univ. of Ala. v.
Garrett, 531 U.S. 356, 363, 121 S. Ct. 955, 962, 148
L.Ed.2d 866 (2001). Indeed, State officials “acting in
their official capacities” are outside the class of
“persons” subject to liability under § 1983. Hafer v.
Melo, 502 U.S. 21, 22-23, 112 S. Ct. 358, 360-61, 116
L.Ed.2d 301 (1991) (quoting Will v. Michigan Dept, of
State Police, 491 U.S. 58, 109 S. Ct. 2304, 105 L.Ed.
2d 45 (1989)); see also Carr v. City of Florence, Ala.,
916 F.2d 1521, 1525 n.3 (llth Cir. 1990) (citing Will);

App.21a

Toth, 953 F. Supp. at 1507 (citing Hafner and Will).
Moreover, the Eleventh Circuit has held that immu­
nity exists “in favor of local legislators for conduct in
furtherance of their legislative duties.” Espanola
Way Corp. v. Meyerson, 690 F. 2d 827, 829 (llth Cir.
1982) citing Hernandez v. City of Lafayette, 643 F.
2d 1188 (5th Cir. 1981). Specifically, “the vote of a
city councilman constitutes an exercise of legislative
decision-making.” Id. citing Hernandez. Accordingly,
the Court concludes that Defendants, who are sued
for their decisions and actions concerning Plaintiffs’
liquor license approval, are immune from suit.
C. Claims for Violation of the Establishment
Clause of the First Amendment
Plaintiffs allege that the Defendants violated the
Establishment Clause of the First Amendment by
“allowing church officials to offer advocacy against the
granting of an Alabama Alcohol License For the Sale
of beer and wine, at an eatery establishment.” (Doc. 1
at p. 5). In Lemon v. Kurtzman, the United States
Supreme Court set forth a test to be applied by courts
in determining whether a violation of the Establish­
ment Clause occurred. 403 U.S. 602, 612-13 (1971).
Under the Lemon Test, the court must determine
whether the challenged conduct (l) has a secular
purpose, (2) whether its primary effect is to advance
or inhibit religion, and (3) whether the challenged
conduct creates an “excessive government entangle­
ment” with religion. Id. As to the first prong of the
Lemon Test, the law is settled that the “protect [ion]
of churches and schools from disruption associated
with liquor serving establishments” is a valid secular
purpose. VFW

App.22a

John O’Connor Post #4833 v. Santa Rosa County,
506 F. Supp. 2d 1079, 1088 (N.D. Fla. 2007) (quoting
Larkin v. Grendel’sDen, 459 U.S. 116, 124, n.6 (1982)).
Thus, the Court concludes Plaintiffs cannot demon­
strate that Defendants violated the Establishment
Clause by allowing church officials to speak at the
Pike County Commission on the issue of whether to
approve Plaintiffs’ application for a liquor license.
Moreover, contrary to Plaintiffs claims, the Defend­
ants’ conduct would arguably have violated the Estab­
lishment Clause, if the Defendants had refused to
allow citizens to speak in opposition to the Plaintiff s
application on the basis of those individuals’ affiliation
with the church. See Widmar v. Vincent, 454 U.S. 263,
271-78 (l98l)(Any exclusionary policy for discourse
in public forums, which is based on content of reli­
gious speech, is limited by the Free Exercise and
Free Speech Clauses of the First Amendment). Accord­
ingly, the Court concludes that Plaintiffs’ First Amend­
ment Claims are due be dismissed.
D. Claims for Violations of Plaintiffs’ Due Process
Rights
Plaintiffs allege that they were denied substantive
and procedural due process when the Defendants voted
to deny approval of Plaintiffs’ application for a liquor
license from the ABC Board. (Doc. 1 at p. 5). “In this
circuit, a § 1983 claim alleging a denial of due process
requires proof of three elements: (l) a deprivation of
a constitutionally-protected liberty or property interest;
(2) state action; and (3) constitutionally-inadequate
process.” Arrington v. Helms, 438 F.3d 1336, 1347-48
(llth Cir. 2006) (quoting Grayden v. Rhodes, 345 F.3d
1225, 1232 (llth Cir. 2003)). Regarding a property
interest, Plaintiff must have “a legitimate claim of

App.23a

entitlement to it,” rather than having a mere “unilat­
eral expectation” of the property interest. Board of
Regents v. Roth, 408 U.S. 564, 577 (1972). Indeed,
“[p]roperty interests are not created by the [United
States] Constitution but are ‘defined by existing
rules or understandings that stem from an indepen­
dent source such as state law’ and arise only where
the plaintiff demonstrates a ‘legitimate claim of
entitlement.’” Polenz v. Parrott, 883 F. 2d 551, 555
(7th Cir 1989) quoting Roth, id at 577. Thus, when
considering a due process claim, the Court looks to
the applicable state statute. See Arrington v.
Dickerson, 915 F. Supp. 1503, 1508 (M.D. Ala. 1995)
(Granting Defendant city council members’ motion to
dismiss Plaintiffs § 1983 action for failing to issue
him a liquor license).
Interpreting the Alabama statute applicable to the
liquor licensing process, the Court wrote “[t]he statute
governing these circumstances has been succinctly
summarized by the Supreme Court of Alabama as
follows:
Section 28-3A-11 expressly provides that the
governing authority of a municipality must
give its consent and approval before a retail
liquor license can be issued by the ABC
Board if the premises sought to be licensed
are located within a municipality. Further,
that such requirement is within the legis­
lature’s authority to regulate traffic in liquors
which power is considerably broader than
the state’s power to regulate a business not
dealing in alcoholic beverages and a public
officer exercising a quasi-judicial function in
granting or refusing to grant a permit or

App.24a

license may not be liable for damages absent
a corrupt or malicious motive in the exercise
of that function.”
Id. citing Ott v. Everett, 420 So. 2d 258, 259-60 (Ala.
1982). The . Court reasoned that since this statute set
“forth no substantive criteria under which a city ‘must’
issue a liquor license . . . [Plaintiff] has no legitimate
claim of entitlement to a liquor license.” Id. citing
Polenz, 883 F. 2d at 555. Furthermore, this Court held
Plaintiff “does not have a liberty interest in obtaining a
liquor license” because the Alabama Supreme Court
has held “[a] license to engage in the sale of intoxicants
is merely a privilege with no element of property right
or vested interest of any kind.” Arrington, 915 F.Supp.
at 1508 citing Ott, 420 So. 2d. at 261. Thus, “Alabama
has extinguished any liberty interest” in such a license.
Arrington, id. citing Polenz, 883 F. 2d at 556. Accord­
ingly, the Court concludes that Defendants’ Motion to
Dismiss is due to be granted on Plaintiffs’ due process
claims.
E. Claims for Violations of Plaintiffs’ Equal
Protection Rights
Plaintiffs allege that they were denied equal pro­
tection of the laws when the Pike County Commission
voted to deny approval of their liquor license for the
“real reason” of Plaintiffs’ “personal relationship, {sic}
and one is white, and the other black, as the male is
black.” (Doc 1 at p. 5). In order to demonstrate a claim
for violation of their equal protection rights, Plaintiffs
must allege facts sufficient to show that (l) Plaintiffs
were “treated differently than similarly situated per­
sons”; and (2) Defendants “unequally applied the
facially neutral statute for the purpose of discrimin-

App.25a
ating” toward Plaintiffs. See Strickland v. Alderman,
74 F. 3d 260, 264 (llth Cir. 1996). A defendant “cannot
violate a plaintiffs equal protection rights unless the
defendant has the intent to discriminate.” Mencer v.
Hammonds, 134 F.3d 1066, 1070 (llth Cir. 1998).
The Court has carefully reviewed the complaint
and concludes that Plaintiffs have plead no facts to
plausibly show that the Commission “members knew
of’ the Plaintiffs’ personal relationship. See Arrington,
915 F. Supp. at 1515 (M.D. Ala. 1995) (“[I]n order to
the bridge the gap between . .. [Plaintiffs’ relationship
and their] denial of a license by the City Council, the
court has to assume facts not in the complaint.”).
However, courts are precluded from assuming facts
that are not plead. See Flinklock Const. Services v.
Well-Come Holdings, 710 F. 3d 1221, 1227-28 (llth
Cir. 2013). Indeed, the Complaint contains no factual
allegations supporting a reasonable inference that
any member of the Pike County Commission had any
knowledge that Plaintiffs were involved in a relation­
ship. Plaintiffs Alcohol License Application identifies
Andrew Clark and Beverly Corbin as owning the
Smokin Skillet Cafe in “partnership” but includes no
information identifying their race or relationship
status. (Doc. 9, Ex. 2 at l). Thus, the Court concludes
that Plaintiff has failed to allege Defendants had any
discriminatory intent.
The Court further concludes that with respect to
the similarly situated prong Plaintiffs have failed to
demonstrate that other persons “similarly situated
to Plaintiff[s] in all relevant respects” were “treated
differently”. Hayden v. Coppage, 533 F. Supp. 2d 1186,
1194 (M.D. Ala. 2008) (Citations omitted) (Granting
motion to dismiss on equal protection claim for failure

App.26a
to adequately plead a comparator.) Plaintiffs allege
Melvin Coleman, the prior owner of the property, as
a comparator and attach to the complaint his affida­
vit. In his affidavit, Coleman states that he obtained
“an Alabama Alcohol License, to sell beer and wine,
as recently as 2005, at the above mentioned address.”
(See Doc. 1, Ex. l). Plaintiffs, however, fail to provide
any evidence establishing Coleman’s race or status of
any personal relationship. Further, Plaintiffs make
the general allegation in their Amended Complaint
that “the building site had been licensed multiple
times before, never by a mixed couple.” (Doc. 33 at p.
l). This barebones allegation, without more, is insuf­
ficient to establish a “similarly situated” comparator.
Thus, the Court concludes that Defendants’ motion to
dismiss on the equal protection claim is due to be
granted. Id.
V.

CONCLUSION

Accordingly, it is the RECOMMENDATION of the
Magistrate Judge that Defendants’ Motion to Dismiss
(Doc. 9) be GRANTED and that any other pending
motions be denied as Moot. It is further ORDERED
that the parties shall file any objections to the said
Recommendation on or before May 15, 2018. Any
objections filed must specifically identify the findings
in the Magistrate Judge’s Recommendation to which
the party objects. Frivolous, conclusive or general
objections will not be considered by the District Court.
The parties are advised that this Recommendation is
not a final order of the court and, therefore, it is not
appealable.
Failure to file written objections to the proposed
findings and recommendations in the Magistrate

App.27a

Judge’s report shall bar the party from a de novo
determination by the District Court of issues covered
in the report and shall bar the party from attacking
on appeal factual findings in the report accepted or
adopted by the District Court except upon grounds of
plain error or manifest injustice. Nettles v. Wainwright,
677 F.2d 404 (5th Cir. 1982); Stein v. Reynolds Secu­
rities, Inc., 667 F.2d 33 (llth Cir. 1982); see also
Bonner v. City of Prichard, 661 F.2d 1206 (llth Cir.
1981, en banc) (adopting as binding precedent all of the
decisions of the former Fifth Circuit handed down
prior to the close of business on September 30, 1981).
DONE this 1st day of May, 2018.
Is/ Terry F. Moorer
Terry F. Moorer
United States Magistrate Judge

App.28a

ORDER DENYING IFP MOTION
WHICH HAD NOT BEEN FILED,
BY THE MIDDLE DISTRICT OF ALABAMA,
NORTHERN DIVISION
(MAY 1, 2018)
IN THE DISTRICT COURT OF THE UNITED
STATES FOR THE MIDDLE DISTRICT OF
ALABAMA, NORTHERN DIVISION
ANDREW CLARKE AND
BEVERLY ELAINE CORBIN,
Plaintiffs,
v.
RAY D. GOODSON, ET AL.,
Defendants.
CASE NO. 2:17-cv-730-MHT-TFM
Before: Terry F. MOORER,
United States Magistrate Judge
ORDER: This cause is now before the court on
the plaintiffs’ 43 Notice of Appeal. Although the
plaintiffs paid the filing fee at the inception of this
case, the plaintiffs have not submitted the required
appellate filing fee. As the appeal cannot proceed
without either the filing fee or an order allowing the
appeal to proceed in forma pauperis, the court will
treat the notice of appeal as a motion to proceed on

App.29a
appeal in forma pauperis. It is ORDERED that the
plaintiffs’ motion to proceed on appeal in forma
pauperis is denied; and that the appeal in this cause
is certified, pursuant to 28 U.S.C. 1915(a), as not taken
in good faith. Signed by Honorable Judge Myron H.
Thompson on 10/26/2018. (dmn,) (Entered: 10/26/2018)

App.30a

ORDER DENYING REHEARING BY THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
(JANUARY 30, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ANDREW CLARKE, BEVERLY ELAINE CORBIN,
Plain tiffs-Appellan ts,
versus
RAY D. GOODSON, County Commissioner, Ret.,
PIKE COUNTY BOARD OF COMMISSIONERS,
JOEY JACKSON, County Commissioner,
ROBIN SULLIVAN, County Commissioner,
JIMMY BARRON, County Commissioner,
Defendants-Appellees.
No. 18-14537-FF
On Appeal from the United States District Court
for the Middle District of Alabama
TJOFLAT, WILLIAM PRYOR,
and BRANCH, Circuit Judges.
Appellants’ “Petition for Re-Hearing and Re-Hear­
ing En Banc,” construed as a motion for reconsideration
pursuant to 11th Cir. R. 35-4, is DENIED.

Blank Page

Supreme court
Press

